        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report


The Department of Energy's
Implementation of the Energy
Efficiency and Conservation Block
Grant Program under the Recovery
and Reinvestment Act: A Status
Report




OAS-RA-10-16                          August 2010


                                  Department of Energy
                                    Washington, DC 20585

                                         August 11, 2010


MEMORANDUM FOR THE SECRETARY



FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: The Department of Energy's Implementation of the
                          Energy Efficiency and Conservation Block Grant Program under the
                          American Recovery and Reinvestment Act: A Status Report

BACKGROUND

The purpose of the American Recovery and Reinvestment Act of 2009 (Recovery Act) was to
stimulate the U.S. economy, create or save jobs and invest in the Nation's energy future. The
Recovery Act provided $3.2 billion for the Energy Efficiency and Conservation Block Grant
Program (Program). Administered by the Department of Energy, the Program provides funding
for projects that improve energy efficiency and reduce energy use and fossil fuel emissions.
Activities eligible for funding include, for example, energy efficiency building retrofits and
large-scale heating and cooling systems.

Using a population-driven formula, the Department distributed about $2.7 billion of the $3.2
billion of the Recovery Act funds authorized for the Program to over 2,300 entities including:
State Energy Offices (SEO) located in 56 states and U.S. territories; 1,700 cities and counties;
and, 500 Indian tribes. The balance of the funding, nearly $500 million, was directed to
competitive grant awards and technical assistance activities.

This audit was initiated to evaluate the Department's progress in implementing the Program and
the Recovery Act. Consistent with this objective, we are providing the results of our analysis of
the current implementation status of the Block Grant Program, including a description of
challenges and impediments faced by the grant recipients in applying for, obtaining approval to,
and actually expending funds. We believe that our findings in this area suggest lessons learned
and best practices which will prove useful in implementing similar grant programs in the future
or in continuing this Program should it be reauthorized.

OBSERVATIONS AND CONCLUSIONS
Actual Program spending has not kept pace with anticipated expenditures. Our review of
Department data disclosed that as of August 2010, more than one year after the Recovery Act
was passed, grant recipients had expended only about 8.4 percent of the $3.2 billion authorized
for the Program. Specifically, the grant recipients, as of August 2010, had:
           Spent1 $269.7 million for energy efficiency activities and/or projects. That was
           significantly less than the $675 million anticipated in the Department's initial Project
           Operating Plans. Three of the territories had not spent any grant money at all, even
           though funding had been awarded and was available for use. (See Appendices 1 and 2)
           Reported in their Second Quarter 2010 filing that grant money had resulted in creating or
           saving 2,265 jobs, or about one job per grant award.
These spending levels were inconsistent with initial Department targets as well as the
fundamental goals of the Recovery Act to stimulate the U.S. economy and to create new jobs.
This was despite what was a herculean effort by Department personnel to get the Program started
and executed.
Our analyses of formula based grants demonstrated that delays in spending were prevalent and
widespread throughout the Program. Specifically, the amounts requested by recipients either to
pay for projects and activities that had already been completed or were expected to be completed
in the near future were insignificant compared to the amount of funding obligated by the
Department to the recipients. Our examination revealed that the 291 recipients that had received
the largest individual awards (those over $2 million), had only spent, on average, less than 8
percent of their funding. Spending delays by these recipients dramatically affect the success of
the Program, since this category represents over 70 percent of the total funding allocation for
non-competitive, formula grants.
To illustrate, the table below shows the amount of funding spent for the top 10 recipients in
terms of the amount of the award. With the exception of the Pennsylvania SEO and the City of
Houston, the spending rates for the remaining eight recipients were 2.2 percent or less. In fact,
three of the top 10 recipients had spent less than 1 percent of their available funds.

                                                 BLOCK GRANT FUNDING SPENT
                                                      As of August 1, 2010

                                                                               Amount of                         Percentage of
              Recipient                        Amount of Award                Funding Spent                      Funding Spent

    City of New York                               $80,802,900                            $1,515,573                  1.9%
    California SEO                                 $49,603,400                              $404,099                  0.8%
    Texas SEO                                      $45,638,100                              $790,482                  1.7%
    City of Los Angeles                            $37,017,900                              $129,494                  0.3%
    Florida SEO                                    $30,401,600                              $341,506                  1.1%
    New York SEO                                   $29,760,600                              $669,270                  2.2%
    City of Chicago                                $27,648,800                               $39,090                  0.1%
    Ohio SEO                                       $24,979,600                              $310,747                  1.2%
    Pennsylvania SEO                               $23,574,800                        $10,329,736 (a)               43.8% (a)
    City of Houston                                $22,765,100                           $12,281,093                53.9% (a)
    Source: The Department of Energy's iPortal Database as of August 1, 2010.

    (a)Pennsylvania SEO's amount of draw-down represents a significant amount of funding advanced to sub-grant recipients. The advances do
    not necessarily represent actual spending and were at a level not consistent with other recipients presented in the chart. The City of Houston
    spent the money on supplies and equipment in support of their projects.


1
  The Department defines funding as spent when it is drawn down from the Automated Standard Application for
Payments System. According to Federal requirements, grantees should draw down funds as close as possible to the
time of actual disbursements. The Department also allowed some grantees to draw down funds as advances to sub-
grantees.

                                                                        2

Department officials told us that they recognized the delays in spending, but noted that spending
rates have significantly increased since March 2010. For example, management officials pointed
out that the $141 million spent as of May 2010, represented a nearly 70 percent increase over the
$83 million that had been spent 2 months earlier. Officials also pointed out that they expect
spending to continue at an increasing rate since 98.5 percent of the $2.7 billion has now been
obligated to grantees.

Further, Department officials expressed the view that the amount of recipient spending was not a
leading indicator for Program performance. Specifically, officials stated that there was a timing
difference between recipients invoicing expenses and the Department processing payments that
resulted in a "reported" lower spending rate than was actually occurring in the Program. Instead,
Department officials indicated that "funds obligated by recipients" was a better measure of
success and this measure related more directly to meeting the goals of the Recovery Act. For
example, officials noted that obligating funds is a key step in starting projects and putting the
money to work in the economy. As of July 13, 2010, the Department estimated that grantees had
formal commitments (obligations) to spend $1.26 billion (or 46 percent) of their awards for
goods and services related to the Program. We could not verify the Department's estimate,
however, because it was based on information obtained through telephone calls and less than
formal contacts with recipients that were not provided to us.

We concluded, however, that the amount of funds spent on the Program is the most accurate and
realistic metric of Program progress. Based on our independent contacts with selected recipients,
we confirmed that the amount of funds spent does, for the most part, closely correlate to actual
work performed. Specifically, recipient requests for reimbursements were made within 30 days
of the work that was performed. Additionally, according to Federal and Departmental
regulations, grantees are required to request funds for project costs as close to actual
disbursements as possible. Further, even though funding has been obligated by grantees, it may
be months before the actual effect is felt in the economy. For example, the Department obligated
the majority of the $2.7 billion to grantees by September 30, 2009. However, only a small
percentage of the funding has been used to implement energy conservation projects and, as noted
above, approximately 2,265 jobs, about 1 per grant, had been created in the 17 months since the
passage of the Recovery Act.

In spite of recent actions by the Department and grantees to overcome impediments associated
with the establishment of a new program, the slow rate of spending Block Grant funds has
neither met initial Departmental targets nor achieved the desired stimulative effect on the
Nation's economy. To their credit, both the Department and grant recipients had taken a number
of positive actions to implement the Program. However, as discussed in the remainder of our
report, rapid spending of Program funds was hampered by numerous administrative and
regulatory challenges associated with implementing a new program at multiple levels of
government, including Federal, state and local governmental entities.

IMPEDIMENTS TO IMPLEMENTATION

We found that the Department, as well as grant recipients throughout the Nation, faced
substantial impediments to establishing the Program in the expedited timeframe the Recovery

                                                3


Act demanded. Specifically, administrative and regulatory issues plagued the Program from the
start.

In an effort to identify specific impediments impacting the Program, we analyzed key steps in the
award process and release of funds to grant recipients and collected information from a cross-
section of recipients to identify factors that contributed to delays in expediting projects and
activities and affected the timely expenditure of Recovery Act funds. The following chart
presents the key milestones associated with the award process and release of funds. (See
Appendix 3 for a listing of recipients contacted during our audit.)




As shown above, nearly seven months were required to: solicit grant applications; receive and
review applications; award funds; and, establish the terms and conditions of spending. Since the
Program was a new program for both the Department and grant recipients, each activity along
the timeline involved the creation of policies, procedures, regulations, as well as the
identification and evaluation of energy efficient activities to be funded. The following sections
discuss impediments encountered by the Department and grant recipients at various stages.

                                 Federal Administrative Issues

While authorized by the Energy Independence and Security Act of 2007, actual funding for the
Program was not provided until the Recovery Act was passed. When the Recovery Act was
passed in February 2009, the Department understandably did not have the necessary resources in
place to implement the new Program. At the onset, only two individuals were assigned to the
Program. Consequently, the Department used management and staff from other programs to
complete such fundamental tasks as developing new regulations and managing the application
and award processes.

Additionally, hiring new staff proved to be difficult, as government-wide demand for personnel
such as contract specialists and project officers increased largely due to the Recovery Act. To
compensate for staffing shortages, management reached out for assistance from other
Department programs that had not been directly impacted by the Recovery Act and from
contractors. For example, in an effort to expedite the issuance of awards, the Department created

                                                4


a team of technical reviewers to perform initial evaluations of applicant activities. Officials
reported, however, that this effort was not entirely successful, because reviewers lacked financial
assistance experience and, therefore, failed to obtain key information needed to issue the awards.
As a result, officials indicated that awards were further delayed because of the need to request
additional documentation such as detailed budget information from recipients.

Finally, we noted that leadership positions such as the Program Director were not initially filled
and, subsequently were filled in an acting capacity for varying lengths of time. For example, the
Department did not appoint a permanent Program Director until April 2010. The lack of a
permanent Program Director, in our opinion, compounded the difficulties normally experienced
in establishing a new program. Department officials told us in May 2010, that, in addition to
having a permanent Director, the Program also now has a full complement of staff to administer
the Program.

                       State and Local Government Administrative Issues

At the state and local levels, grant recipients told us that they struggled to understand Program
requirements, apply for an award and establish their individual programs. Although some
recipients may have had experience with similar energy grant programs, many of the 2,300
entities entitled to formula awards were eligible for Federal funding for the first time. These
entities needed administrative assistance from the Department but told us that they had difficulty
obtaining responses to their questions. For example, officials from the County of St. Louis,
Missouri, indicated that during the award process, questions submitted to the Department were
not addressed directly, but rather through website postings of frequently asked questions.
St. Louis officials told us that they did not always find this technique helpful. Additionally, the
County noted that since its award in July 2009, it had received inconsistent Program direction, in
part, because their point of contact with the Department had changed several times.

State and local grant recipients also indicated that they were burdened by staffing challenges.
Due to the economic downturn, both state and local governments have experienced budget
shortfalls that have led to furloughs and hiring freezes. As noted in our Special Report on
Progress in Implementing the Department of Energy's Weatherization Assistance Program Under
the American Recovery and Reinvestment Act (OAS-RA-10-04, February 2010), a number of
government entities were under hiring freezes that applied to all employees regardless of the
source of their funding. Further, many entities had received an unprecedented amount of
Recovery Act funding from the Department as well as other Federal agencies. As officials from
these entities observed, dramatic funding increases stretched already strained resources and
impacted the ability of state and local governments to meet program deadlines. For example, the
City of Chicago and the Pennsylvania SEO expressed frustration with implementing the new
Program with existing staff because of budget freezes or other hiring issues. Pennsylvania SEO
officials told us, in particular, that they were unable to hire a Program Manager until November
2009, when a hiring freeze was lifted. Further, City of Los Angeles officials indicated that they
had experienced delays due to budget shortfalls which led to the reorganization of Los Angeles'
department responsible for the award.




                                                 5


In addition to staffing issues, state and local entities reported that local jurisdictional
requirements have also affected the ability to expedite projects funded under the Recovery Act.
Budget and procurement requirements often added significant time to completing planned
projects and activities. For example, officials from the County of St. Louis told us that because
of local requirements, they were unable to make any financial commitments on Block Grant
projects until April 2010 when the Department made their total funding available. County
officials also told us that they did not expect funded projects to begin for an additional three
months, the time required to obtain the necessary County procurement and budget approvals.
Similarly, Georgia SEO officials noted that the local process for approving selected projects took
approximately four months from the time a project was proposed until it was approved. Further,
Fairfax County, Virginia, officials noted that state regulations will not allow them to obligate or
spend grant funding until all award conditions are removed, an event that did not occur for that
County until April 2010.

                          Regulatory and Administrative Requirements

Although the majority of Block Grant funding was obligated by September 2009, these funds for
the most part were not available for spending by grant recipients because of "regulatory holds"
placed on the funds by the Department. As recently as March 11, 2010, approximately $1.5
billion of the $2.7 billion in obligations had conditions attached that restricted spending for
compliance with various regulatory and administrative requirements such as the National
Environmental Protection Act (NEPA).

Because of the nature of energy efficiency and conservation projects and activities, regulatory
requirements such as those found in the NEPA, the National Historic Preservation Act, and the
Davis Bacon Act prevailing wage laws can have a significant impact on the time it takes for a
project to be developed and approved. All projects proposed under the Program require NEPA
review and approvals (assessments of the project's impact on the environment) by the
Department prior to implementation. Projects that involve energy efficient retrofits of historic
buildings, those more than 50 years old and possessing "historical significance" may require
State approval to ensure compliance with the National Historic Preservation Act. Still other
projects are affected by the Buy American requirements of the Recovery Act which govern
procurement of materials and equipment manufactured in the United States and/or the Davis
Bacon Act addressing requirements to pay contractors the prevailing wage.

Recognizing the delays associated with these requirements, Department officials pointed out that
they had taken action to expedite compliance with regulatory requirements. For example, these
officials told us that starting in January 2010 they used "NEPA Tiger Teams" to review proposed
Program projects for compliance. Further, in May 2010, Department officials told us that they
have eliminated the regulatory holds on the vast majority of obligations in order to expedite
spending. For example, as of May 11, 2010, only $173 million of obligations was restricted by
conditions. The elimination of regulatory holds, however, does not relieve the grant recipient
from complying with regulatory requirements such as NEPA reviews before spending Recovery
Act funds.

Despite Departmental efforts to expedite regulatory reviews, grant recipients we spoke with
expressed frustration with the funding holds and the lack of regulatory guidance provided by the
                                                 6


Department at the beginning of the Program. Examples of problems associated with delays in
guidance on regulatory compliance included:

       The NEPA approval process proved to be particularly troublesome to some recipients.
       The Department issued a series of guidance documents regarding NEPA compliance
       between October 2009 and April 2010. Colorado SEO officials expressed frustration
       with the guidance because, in their opinion, the guidance documents appeared to conflict
       with each other in terms of describing the types of projects that would require a NEPA
       review. Further, officials from the City of Houston stated that one of their biggest
       obstacles which delayed the Program was understanding the NEPA process, specifically
       the information that was required by the Department;

       The Department did not release formal guidance regarding compliance with the National
       Historic Preservation Act until February 2010. Further, even though the Department
       delegated authority for compliance with the Act to recipients in August 2009, state
       officials experienced delays in obtaining the necessary approvals from their local
       delegated authorities. Ohio SEO officials, for example, told us that they received
       approval from the State Historic Preservation Office as of June 2010; and,

       The Department did not finalize guidance on the use of Program funds for revolving
       loans until April 2010. Due to this delay, some recipients still have activities that have
       not been approved. Notably, the City of New York has a project totaling over $16
       million with revolving loan funds identified that is still being developed because of the
       delay in guidance. Delays related to revolving loan funds were also noted by the County
       of Miami-Dade, Florida, and the City of Chicago.

PATH FORWARD

Recently, the Department has taken steps to expedite the implementation of the Program.
Specifically, the Department:

       In October 2009, and in March 2010, increased the dollar thresholds from $1 million to
       $10 million for required Departmental approvals of subcontracts and sub-grants.
       Department approvals of subcontracts and sub-grants is a typical financial assistance
       activity intended, among other things, to prevent Federally debarred contractors from
       receiving Federal funds; and,

       In April 2010, established a June 25, 2010, target for grant recipients to obligate funds.
       The target date is nine months sooner than the March 2011 deadline established under the
       terms and conditions of most grant agreements. Recipients, however, told us that they
       did not consider the target date realistic due, in part, to the fact that the Department had
       not unconditionally released the majority of their funds until early 2010. As previously
       discussed, as of July 13, 2010, the Department estimated that grantees had formal
       commitments (obligations) to spend 46 percent of their awards for goods and services
       related to the Program.


                                                7

Although Departmental actions such as eliminating conditions on obligated funds, increasing
dollar thresholds on subcontractor approvals, and accelerating target dates for grantee obligations
are intended to expedite spending, these actions also have associated risks that will require
increased vigilance on the part of the Department. Given the delays encountered to date, a
compressed timeframe for grantees to obligate and expend funds may increase the risks
associated with ensuring compliance with regulatory requirements, such as NEPA, as well as,
maintaining effective financial control over the expenditure of funds. Departmental monitoring
and review of grantee projects and expenditures will be critical to this process, as well as the
Department's obligation to successfully achieve the Recovery Act goals of stimulating the
economy and advancing energy conservation. However, the Department's monitoring resources
will be stretched because of the thousands of grant recipients and projects that the Department
will be required to monitor during a relatively short period of time.

Department officials, however, believed that they had established a workforce that is capable of
dealing with current and future demands. In recognition of staffing concerns and workload
demands, the Department had taken a number of actions. The Department established a team
approach comprised of project managers, contracting officers, and contract specialists to provide
Block Grant management and monitoring in an attempt to address the increased workload. It
also developed an informal mentoring program for newly hired project officers to increase the
success of project oversight for Block Grants over $2 million. Finally, the Department has
established a monitoring plan and project management information system to track the status of
funded projects. For example, project managers are required to enter the results of desktop
reviews and monitoring visits into the project management information system which will be
used to identify projects that are not meeting their financial or programmatic objectives.

CONCLUSION

The Block Grant Program was intended to strengthen the Nation's economy and create jobs at the
local level, and it represented a major national investment in our energy future. However, due to
a number of institutional impediments at all levels, these goals have yet to be met. Further, the
issues discussed in this report are similar to those discussed in our Special Report on Progress in
Implementing the Department of Energy's Weatherization Assistance Program Under the
American Recovery and Reinvestment Act (OAS-RA-10-04, February 2010). Taken together,
the two reports provide a series of lessons learned which can be applied prospectively to ensure
that programmatic goals and objectives are met as expeditiously as possible.

MANAGEMENT AND AUDITOR COMMENTS

Management concurred with many of the observations in the report.

Management, however, fundamentally disagreed with the report's conclusion that the Program
has not achieved its economic stimulus and job creation goals. Specifically, management stated
that obligations by the grant recipients are a better measure of the Program's economic impact
than spending since the obligation of funds shows that the recipients have contracts in place upon
which contractors based their hiring decisions. Management also pointed out that the jobs
created statistics, which were based upon the Office of Management and Budget approved job

                                                8


calculation methodology, show that the Program ranked in the top 20 percent of Recovery Act
programs. Further, management pointed out that the jobs created statistics paint a limited picture
of the Program's impact since they do not account for indirect and induced jobs creation which
could double the total job created statistics. Management also pointed out that the report's focus
on the largest grant recipients ignored the smaller grant recipients who have met Department
targets. Specifically, management pointed out that city and county grantees receiving less than
$250,000 had met the Department's September 30, 2010, target of making twenty percent of
payments—more than three months ahead of schedule. Finally, management pointed out that, in
March 2010, the Department revised spending targets and that it has consistently met or
exceeded the revised targets for the months March-June 2010.

Although funds obligated by grant recipients is a "leading indicator" of the Program's future
stimulative effect, we concluded that the amount of funds actually spent is a sound measure of
the economic activity created by the Program to date. Specifically, as discussed in the report,
our work indicated that there is a close correlation between the time grant recipients draw down
their grant funds and when the work was actually performed. The performance of work and the
resulting payment of wages for that work is, in our view, a sound indicator of the extent to which
the Program has created jobs and injected funds into the economy. We focused on the largest
grant recipients because, as acknowledged by management, they represent a sizeable portion of
the funds. Also, the largest grant recipients represented more complex projects that involved the
types of activities and regulatory requirements that were the subject of this report.

After submission of its comments on our draft report, management provided information to
support modification of Program spending targets. We concluded that the revised targets better
reflect actual spending to date given the impediments to implementation experienced by the
Program.

Management's comments are included in their entirety in Appendix 5.

cc:		 Deputy Secretary
      Under Secretary for Energy
      Chief of Staff
      Assistant Secretary for Energy Efficiency and Renewable Energy
      Chief Financial Officer
      Senior Advisor, Office of American Recovery and Reinvestment Act




                                                9


                                                                                            Appendix 1


       Block Grant Recovery Act Dollars Authorized Compared to Dollars Spent




       Dollars Spent as of
        August 1, 2010
        $269.7 Million
          8.4 Percent




                                                                 Total Dollars Authorized
                                                                       $3.2 Billion




Source: The Department's iPortal database as of August 1, 2010




                                                        10 

                                                                                                                    Appendix 2



    Total Formula Grant Funding Awarded Compared to Total Funding Spent as of August 2010

                                                        Total Awarded/ Obligation     Total Spent / Outlay    Percent of Funds Spent
Alabama                                                                 31,748,000               3,753,539                     11.8%
Alaska                                                                  24,963,000               1,959,823                      7.9%
American Samoa                                                           9,593,500                    6,596                     0.1%
Arizona                                                                 72,453,900               4,747,995                      6.6%
Arkansas                                                                19,495,000               2,601,187                     13.3%
California                                                             352,996,355              37,082,833                     10.5%
Colorado                                                                42,414,800               4,543,080                     10.7%
Connecticut                                                             24,560,500               2,802,161                     11.4%
Delaware                                                                15,918,700               1,407,263                      8.8%
District of Columbia                                                     9,593,500                   50,390                     0.5%
Florida                                                                168,339,200              14,689,598                      8.7%
Georgia                                                                 67,115,760               3,288,558                      4.9%
Hawaii                                                                  15,068,200                  352,167                     2.3%
Idaho                                                                   17,118,257               3,017,835                     17.6%
Illinois                                                               112,008,919               9,409,834                      8.4%
Indiana                                                                 42,237,672               3,697,209                      8.8%
Iowa                                                                    19,708,900               1,176,494                      6.0%
Kansas                                                                  25,514,300               2,956,559                     11.6%
Kentucky                                                                25,136,500               1,162,792                      4.6%
Louisiana                                                               33,714,700               3,566,731                     10.6%
Maine                                                                   14,664,780               1,787,922                     12.2%
Maryland                                                                52,292,173               1,539,704                      2.9%
Massachusetts                                                           41,509,860               9,388,753                     22.6%
Michigan                                                                76,785,507               8,550,723                     11.9%
Minnesota                                                               38,484,100               9,528,175                     24.8%
Mississippi                                                             17,150,500               2,999,256                     17.5%
Missouri                                                                47,858,737               5,215,192                     10.9%
Montana                                                                 15,214,700               1,284,300                      8.4%
Nebraska                                                                19,154,769               1,280,999                      6.7%
Nevada                                                                  32,195,125              10,006,273                     31.1%
New Hampshire                                                           17,275,200               2,162,934                     12.5%
New Jersey                                                              71,080,200               5,552,604                      7.8%
New Mexico                                                              21,983,300               1,934,500                      8.8%
New York                                                               175,375,300               6,944,436                      4.0%
North Carolina                                                          58,136,500               3,778,808                      6.5%
North Dakota                                                            12,818,000                  867,465                     6.8%
Ohio                                                                    82,298,300               9,352,199                     11.4%
Oklahoma                                                                36,114,455               3,082,479                      8.5%
Oregon                                                                  34,651,500               4,305,466                     12.4%
Pennsylvania                                                           101,791,219              17,706,285                     17.4%
Puerto Rico                                                             31,240,195               3,904,659                     12.5%
Rhode Island                                                            14,599,200                  872,615                     6.0%
South Carolina                                                          31,623,100               3,512,710                     11.1%
South Dakota                                                            14,648,700               1,408,233                      9.6%
Tennessee                                                               41,940,050               2,266,009                      5.4%
Texas                                                                  207,839,975              25,552,895                     12.3%
Utah                                                                    27,455,800               2,857,250                     10.4%
Vermont                                                                 11,768,540                  485,809                     4.1%
Virginia                                                                59,754,300               3,467,304                      5.8%
Washington                                                              58,696,400               9,349,668                     15.9%
West Virginia                                                           14,003,800               1,314,397                      9.4%
Wisconsin                                                               38,539,800               4,180,624                     10.9%
Wyoming                                                                 12,057,600                  506,878                     4.2%
Territories (Guam, Northern Mariana Islands, Virgin
Islands)                                                                 28,780,500                      0                     0.0%
                                          Totals (56)                $2,689,481,848           $269,220,088                    10.0%

  Source: The Department's iPortal database as of August 1, 2010.




                                                                11
                                                                                  Appendix 3


                       Recipients Contacted During Our Audit



         Recipient         Award Date           Total Amount      Percentage of Funding
                                                  Awarded              Spent as of
                                                                     August 1, 2010
City of New York            09/28/2009              $80,802,900                     1.9%
City of Los Angeles         07/27/2009              $37,017,900                     0.3%
City of Chicago             09/28/2009              $27,648,800                     0.1%
City of Houston             09/28/2009              $22,765,100                    53.9%
County of Miami-Dade        09/14/2009              $12,523,700                    17.9%
County of Fairfax           10/26/2009               $9,642,800                     2.5%
County of St. Louis         07/27/2009               $8,488,900                     3.2%
Ohio SEO                    09/21/2009              $24,979,600                     1.2%
Pennsylvania SEO            09/21/2009              $23,574,800                    43.8%
Georgia SEO                 09/14/2009              $21,630,700                     1.1%
Colorado SEO                09/30/2009               $9,593,500                    12.9%




                                         12


                                                                                    Appendix 4


                      OBJECTIVE, SCOPE, AND METHODOLOGY




OBJECTIVE 


The objective of our audit was to determine the Department of Energy's (Department) progress
in implementing the Energy Efficiency and Conservation Block Grant Program (Program) and
the American Recovery and Reinvestment Act of 2009.

SCOPE

We conducted the audit from October 2009 to August 2010 at Department Headquarters in
Washington, D.C.; the Golden Field Office (Golden) in Golden, Colorado; the Oak Ridge Office
(Oak Ridge) in Oak Ridge, Tennessee; and, the Yucca Mountain Site Office (Yucca Mountain)
in Las Vegas, Nevada.

METHODOLOGY

To accomplish the audit objective, we:

       Reviewed applicable Federal and Departmental regulations related to the Program;

       Reviewed a sample of Block Grant award files to ensure that adequate documentation
       had been maintained;

       Interviewed officials from the Golden, Oak Ridge, Yucca Mountain and Headquarters
       offices to gain an understanding of the administration of the Program;

       Interviewed a sample of grant recipients to determine impediments to implementing the
       Program;

       Reviewed Department data to obtain information on Block Grant awards, obligations and
       spending; and,

       Analyzed Department data for total obligations and funds spent to determine spend rates.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Accordingly, the audit included
reviews of Department and regulatory policies and procedures related to the Department's
management of the Block Grant Program. We assessed performance measures in accordance
with the Government Performance and Results Act of 1993 and concluded that the Department




                                              13


                                                                           Appendix 4 (continued)


had established performance measures related to administration of the Block Grant Program.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We conducted an assessment of
computer-processed data relevant to our audit objective and found it to be sufficiently reliable.

The exit conference was held with management on August 10, 2010.




                                                14


                                         July 22, 2010

MEMORANDUM FOR:                 GREGORY FRIEDMAN


                                INSPECTOR GENERAL
                                OFFICE OF INSPECTOR GENERAL

FROM:		                         KATHLEEN B. HOGAN(508 version no signature)
                                DEPUTY ASSISTANT SECRETARY
                                FOR ENERGY EFFICIENCY
                                OFFICE OF TECHNOLOGY DEVELOPMENT
                                ENERGY EFFICIENCY AND RENEWABLE ENERGY

SUBJECT:		                      Management response to the Office of Inspector General’s
                                Report entitled “The Department of Energy’s Implementation of
                                the Energy Efficiency and Conservation Block Grant Program
                                under the American Recovery and Reinvestment Act: A Status
                                Report.”

The Office of Energy Efficiency and Renewable Energy (EERE) appreciates the opportunity to
review and comment on the results of the Audit “The Department of Energy’s Implementation of
the Energy Efficiency and Conservation Block Grant Program under the American Recovery and
Reinvestment Act: A Status Report.” Although there were no specific recommendations offered
in the Report, EERE management appreciates the IG sharing their observations and is committed
to continuing to improve the EECBG Program. The Program was funded for the first time by the
American Recovery and Reinvestment Act of 2009 (Recovery Act). Due to rapid increases in
payments and significant progress on project implementation, EERE believes the Program is
successfully contributing to the job creation and stimulus goals of the Recovery Act.

While EERE concurs with many of the observations in the Report, we do not concur with the
following statements about the Program’s ability to meet Departmental targets and the goals of
the Recovery Act (see also Attachment A, Regulatory and Administrative Requirements):

    1.		 “The [EECBG payments figure] was significantly less than the $575 million
         anticipated in the Department’s Project Operating Plans.” (p. 2)

The $575M figure cited by the Report is not reflective of the actual Departmental targets as
agreed by Senior Management on March 29, 2010. EECBG has consistently met or exceeded
Departmental targets for the months of March—June 2010 (see Attachment B, Table 1).

    2.		 “Spending levels were inconsistent with Department targets as well as the
         fundamental goals of the Recovery Act to stimulate the U.S. economy and to create
         new jobs.” (p.2); and “the slow rate of spending Block Grant funds has neither met
         Departmental targets nor achieved the desired stimulative effect on the Nation’s
         economy.” (p. 3)

The Program has been meeting departmental targets, and is successfully contributing to the job
creation and stimulus goals of the Recovery Act. EECBG deployment continues to accelerate
rapidly—total payments doubled between Q1 and Q2 2010, and approximately $1.2B has
been obligated by grantees (i.e. formally committed to projects), which is the key leading
indicator of job creation, project execution and stimulus impact.

The Report focused on the largest EECBG grantees when analyzing the pace of spending. While
this sample represents a sizeable portion of funds, it is a minority of grantees. By June 30, 2010,
the group of 600+ city and county grantees receiving less than $250,000 had already met the
Department’s September, 30, 2010 target of making 20% of payments—more than three months
ahead of schedule. This widespread impact is critical to achieving the desired stimulative effect
on the Nation’s economy.

Furthermore, the measure used by the Report as the basis for its observations, referred to as
“spending,” is in fact a measure called “payments.” This measure is not “spending” as such, and
is rather a lagging indicator. As part of standard risk mitigation measures, payments generally
occur only after project spending has occurred (after projects have reached completion, and
invoicing and billing processes are completed). “Funds obligated by grantees” is a leading, and
perhaps better, indicator of Program performance because it marks the point of formally
committing funds, allowing jobs to be created and projects to be implemented. Despite
acknowledging EERE’s assertion that funds obligated by grantees is a leading indicator of
spending, the Report does not portray the critical stimulative impact of grantees entering into
formal commitments with sub-recipients, vendors and other implementation partners. Having
exceeded $1.2B, the funds obligated by EECBG grantees are a strong indicator of the stimulative
effect of the EECBG Program on the U.S. economy. The actual “spending” level in the Program
lies somewhere between the ~$200M in payments cited in the Report and the $1.2B in funds
obligated by grantees. This indicates that hundreds of millions of dollars in stimulus impact has
occurred, and this impact continues to accelerate.

Accordingly, and as noted in the Report, payments have significantly increased in recent months.
During the six week period between May, 12, 2010, to June 22, 2010, total payments increased
by $52.2M or 36%, nearly $9M per week. During the two week period from June 22, 2010, to
July 6, 2010, total EECBG payments increased by an additional $30M or $15M per week. The
coming months truly will be a “Recovery Summer” as grantees continue to see their obligated
funds result in completed projects.

The Report also notes that according to the first quarter 2010 filing, EECBG directly resulted in
creating or saving 1,254 jobs, as reported to OMB. This nominal figure paints a limited picture of
impact because the OMB job calculation methodology only accounts for direct jobs. It does not
account for the indirect job creation or induced impacts that represent a major portion of
stimulative impact. The Council of Economic Advisors estimates that 64% of job creation and
retention generated by Federal stimulus represents direct and indirect effect, and another 36% of
job creation and retention represents induced effects. The 1,254 number only represents a portion
of the aforementioned 64% of impact, and none of the 36% of impact.

Given this limited nature, the 1,254 figure must be viewed in relative context to judge Program
performance. The figure results in the EECBG Program ranking 36th out of 200 “Top Programs”
for job creation and retention, as listed on Recovery.gov.1 This ranking places EECBG in the top
20% of Recovery Act programs. This suggests the Program is one of the leading programs in
successfully contributing to the job creation and stimulus goals of the Recovery Act.

1
 Recovery.gov rankings for CYQ1 2010 are available at:
http://www.recovery.gov/Pages/TextView.aspx?data=jobSummaryProgram&topnumber=200&qtr=2010Q1 
                                                                     IG Report No. OAS-RA-10-16

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1.		 What additional background information about the selection, scheduling, scope, or
     procedures of the inspection would have been helpful to the reader in understanding this
     report?

2.		 What additional information related to findings and recommendations could have been
     included in the report to assist management in implementing corrective actions?

3.		 What format, stylistic, or organizational changes might have made this report's overall
     message more clear to the reader?

4.		 What additional actions could the Office of Inspector General have taken on the issues
     discussed in this report which would have been helpful?

5.		 Please include your name and telephone number so that we may contact you should we have
     any questions about your comments.


Name 	                                         Date

Telephone		                                    Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                Office of Inspector General (IG-1)
                                      Department of Energy
                                     Washington, DC 20585

                                   ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 586-7013.
 

    This page intentionally left blank.
                      
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
